                                     Analysis of GAPS
                                    Duplicate Payments



                       FINAL
           MANAGEMENT INFORMATION REPORT




                                 Control Number A11-B0001
                                        March 2001



Our mission is to promote the efficient                     U.S. Department of Education
and effective use of taxpayer dollars                         Office of Inspector General
in support of American education                                       Washington, DC
Analysis of GAPS Duplicate Payments

                              EXECUTIVE SUMMARY
This report presents the findings of our Grant Administration and Payment System (GAPS)
duplicate payments analysis. The objective of our analysis was to identify information in the
GAPS database and Federal Reserve Bank (FRB) records that could indicate duplicate payments,
which we define as two payments for the same purpose. Before we began our analysis, the
Department identified eight instances of duplicate GAPS payments totaling $198 million that
occurred during the period covered by this analysis, May 11, 1998, to September 30, 2000.

Analysis Results

We found 13 additional instances of duplicate payments totaling approximately $55 million. The
recipients returned all funds to the Department except for $2,175 that was kept by a recipient and
deducted from its grant balances. We identified another nine GAPS transactions for
approximately $5.9 million that could be potential duplicate payments.

We identified four payments totaling approximately $339,000 that were paid to the wrong
recipients in Fiscal Year 1999. We found 35 payments totaling approximately $18 million,
including approximately $2.2 million in fiscal year 2000, which were not adequately explained
by OCFO. We identified five instances in which ED posted duplicate increases in Pell grant
authorizations to recipients’ accounts. We found that the Department made payments to two
frozen bank accounts associated with an alleged fraud scheme, and we identified six likely
duplicate payments that occurred prior to the implementation of GAPS.

Recommendations

We recommend that the Chief Financial Officer:
1. Initiate procedures to actively identify and prevent duplicate payments,
2. Review the procedures for posting grant authorizations to ensure that recipient drawdowns
   are limited to the intended grant authorization amount, and
3. Review the procedures for changing bank accounts and removing bank account flags to
   ensure that payments are not sent to an incorrect bank account.

Future OIG Work Relating to GAPS Duplicate Payments

This analysis is the first of a series of projects focusing on the Department’s payment processes.
We will initiate a subsequent review of GAPS transactions that will include the nine potential
duplicate payments and the other issues described above.

OCFO Response to Report

OCFO agreed to address our first recommendation in their corrective action plan addressing the
recommendations made in the Report on Internal Control issued with the Department’s fiscal
year 2000 financial statements. OCFO also agreed to review the procedures referred to in the
second and third recommendations and prepare written corrective actions to strengthen the
procedures.


ACN A11-B0001                                  March 2001                                   Page 1
Analysis of GAPS Duplicate Payments

                                        BACKGROUND
The U.S. Department of Education (ED) began deployment of a new core financial system in
October of 1997. The system, known as the Education Central Automated Processing System
(EDCAPS), is managed by the Office of the Chief Financial Officer (OCFO). EDCAPS consists
of three major components:

    •   Grant Administration and Payment System (GAPS)
    •   Financial Management Systems Software (FMSS)
    •   Contracts and Purchasing Support System (CPSS).

GAPS supports grant planning and award management of ED programs, including discretionary,
formula, fellowship, and block grants. GAPS also interfaces with other program office systems,
referred to as program feeder systems, to process their obligation and payment data. The
program feeder systems typically support planning, scheduling, and award processes performed
by the program offices to manage their programs (for example, Impact Aid, Campus-Based, and
Pell). GAPS controls payments for ED's programs, including payments for grants and direct
loans and various other program-related obligations. This system serves as a subsidiary to the
FMSS general ledger for program-related obligations, payments, and expenditures. GAPS
interfaces with FMSS at the summary level for purposes of funds control and general ledger
postings.

Payment requests from GAPS are transmitted to the Federal Reserve Bank (FRB) of Richmond,
Virginia. The FRB, in turn, transmits payments to the recipients by either the Fedwire or
Automated Clearing House (ACH) electronic funds transfer systems. Larger recipients generally
use the Fedwire system and smaller recipients generally use the ACH system.

GAPS became operational on May 11, 1998, replacing the Payment Management System (PMS).
A major feature of GAPS is the ability of grant recipients to request drawdowns over the Internet,
which is how the majority of payments are requested. Recipients can also request funds over the
telephone by calling the GAPS help desk and asking an ED employee or contractor to initiate a
payment. The Department has established cash management guidelines that limit the amount of
cash a grantee can hold to their immediate requirements. Once a grant award is established in
GAPS, there is no system control that prevents a recipient from drawing excessive funds within
the total authorized for the particular grant.1 However, as part of the recipient’s annual audit, an
independent public accountant evaluates the recipient’s compliance with the Department’s cash
management guidelines.

Before we began our analysis, the Department identified eight instances of duplicate GAPS
payments totaling $198 million that occurred during the period covered by this analysis.




1 Audit of Drawdown Controls in Grant Administration and Payment System: Control Number A03-80010,
September 2000.

ACN A11-B0001                                     March 2001                                         Page 2
Analysis of GAPS Duplicate Payments

                                OBJECTIVE, SCOPE,
                               AND METHODOLOGY
This analysis is the first of a series of projects focusing on the Department’s payment processes.
This report presents the findings of our analysis of GAPS payments. The objective of this
analysis was to identify information in the GAPS database and FRB records that could indicate
duplicate payments of program funds. Our analysis covered GAPS payment activity during the
period from May 11, 1998, to September 30, 2000. We did not review GAPS processes or
evaluate internal controls; nor did we review administrative payments made by other Department
processes. We restricted our efforts to evaluating transaction documentation provided by the
Department and the FRB.

Data Retrieval

To accomplish the above objective, we requested and received from OCFO the data dictionary
describing the database table structure and data elements of GAPS. We then identified specific
tables and data elements that support GAPS payment capabilities, and obtained related GAPS
data for the period from May 11, 1998, to September 30, 2000.

We requested payment data from the FRB covering the same period. The FRB was able to
provide tapes containing payment transactions (the “sender file”) processed through Fedwire for
the period of our analysis. The FRB also provided us with Fedwire funds transfers from
recipients to ED (the “receiver file”). However, the FRB did not keep backup data supporting
ACH transactions for the entire period of our analysis. FRB was only able to provide ACH
payment transaction data covering the following periods:

•   September 28, 1999, to December 8, 1999;
•   December 14, 1999, to February 16, 2000; and
•   August 8, 2000, to October 2, 2000.

Additionally, we accessed the GAPS help desk tracking system that documents resolution of help
desk calls, including reports of duplicate payments received by recipients.

Analysis

FRB and GAPS data records were analyzed to identify duplicate payments. Specifically,

•   FRB Fedwire and ACH records were queried for duplicate control numbers that may have
    resulted from a payment file being sent to the FRB more than once.

•   FRB Fedwire records were queried for receiver file records which represent transactions
    transferring funds from a recipient to ED. Such transactions can result from returns of
    duplicate payments.




ACN A11-B0001                                 March 2001                                   Page 3
Analysis of GAPS Duplicate Payments


•   FRB Fedwire records were queried for duplicate amounts to the same payee sent to different
    banks within a seven-day period.

•   FRB Fedwire and available ACH payments were matched to GAPS payments to identify
    unrecorded or inaccurately recorded payments.

•   GAPS payment request data was queried to identify requests for duplicate amounts to the
    same recipient within seven days where at least one requester for payment was an ED
    employee.

•   GAPS payment request data was queried to identify duplicate requests for the same amount
    to the same recipient on the same day.

•   GAPS help desk system was queried to identify potential duplicate payments.

We also traced previously identified duplicate payments to our query results to verify the
sufficiency of our query selection.

Some of our queries involved a large number of transactions to evaluate. When this occurred, we
established minimum dollar amounts to reduce the number of transactions requiring followup.
We forwarded these transactions to OCFO and requested that they review the selected
transactions to determine whether they represent improper payments. We also asked OCFO to
provide documentation supporting their conclusions. Our first transmittal to OCFO was
submitted November 14, 2000, and they responded November 28, 2000. A second request was
submitted to OCFO on December 21, 2000, and they responded January 11 and January 17,
2001. Finally, a third request was sent to OCFO on January 10, 2001, and they responded
January 19, 2001.

                   RESULTS AND RECOMMENDATIONS
OCFO’s responses to our requests and to the draft report indicated 13 duplicate payments and 9
potential duplicate payments. We also found 4 payments to the wrong recipients and 35
payments that were not adequately explained by OCFO. Other analyses of the GAPS and FRB
data identified duplicate increases of Pell grant authorizations and payments made to two frozen
bank accounts associated with an alleged fraud scheme. GAPS help desk data identified six likely
PMS duplicate payments.




ACN A11-B0001                                  March 2001                                    Page 4
Analysis of GAPS Duplicate Payments

Thirteen Duplicate Payments

Our review identified 13 instances of duplicate payments totaling approximately $55 million that
occurred in fiscal years 1998, 1999, and 2000 that were not previously identified by OCFO.
These instances occurred when OCFO submitted two payment requests to the FRB for a single
drawdown, or the award showed up twice on the GAPS website. In OCFO’s responses to our
queries and to the draft report, it agreed these duplicate payments occurred. The recipients
returned all funds to the Department except for $2,175 that was kept by a recipient and deducted
from its grant balances. These duplicate payments are summarized below:

   $19,000,000 - Oklahoma State University requested funds on January 7, 1999. In GAPS,
   there is a return posted on the same day as the request. The funds were returned on January
   20, 1999.

   $15,588,710 - A manual payment was made to Electronic Data Systems Corp. on May 8,
   1998, because PMS was shut down for the conversion to GAPS. On May 15, 1998, OCFO
   entered the manual payment into GAPS to record it. This action created a payment request
   record, which was sent to FRB by mistake, creating a duplicate payment. The payment was
   requested back by OCFO the same day.

   $13,688,178 - Pennsylvania State Dept of Education requested funds on October 19, 1999.
   In GAPS, there is a return posted per originator request on the same day as the request. The
   funds were returned on October 20, 1999.

   $4,800,000 - Corporation for Public Broadcasting requested funds on July 28, 1999. In
   GAPS, there is a return posted on the same day as the request. The funds were returned on
   August 2, 1999.

   $1,013,595.07 – North Carolina Department of Health and Human Services requested funds
   twice on March 16, 2000. The state confirmed the duplicate request and returned the second
   payment on the same day.

   $774,216.14 - Connecticut State Department of Education requested funds on December 14,
   1998. In GAPS, there is a return posted on the same day as the request. The funds were
   returned on December 23, 1998.

   $101,055 - Duplicate payments were made to WestEd on September 14, 1998, because the
   award showed up twice on the GAPS website, according to OCFO. The recipient returned
   the funds on October 29, 1998.

   $42,000 - A payment was transmitted to the Commonwealth of Virginia on November 10,
   1998, and again on November 12, 1998. The error was found and FRB confirmed reversal of
   the second transaction on November 16, 1998.

   $33,460.63 - Duplicate payments were made on June 5, 1998, for a grant to the California
   State University Sacramento Foundation. The duplicate payment resulted from two different
   bank accounts being established for the award. According to a help desk record, the second

ACN A11-B0001                                 March 2001                                  Page 5
Analysis of GAPS Duplicate Payments

   payment went to a bank account that did not belong to the grantee. Funds were returned June
   8, 1998. OCFO states that GAPS has been modified to prevent grant mapping to more than
   one bank account.

   $1,728 - Duplicate payments were made to Martin Luther College on September 3, 1998,
   because the award showed up twice on the GAPS website, according to OCFO. The funds
   were returned on September 10, 1998.

   $1,175 - Duplicate payments were made to Wheatridge Beauty College on May 15, 1998,
   because the award showed up twice on the GAPS website, according to OCFO. The school
   chose to keep the duplicate funds for other expenditures.

   $1,000 - Duplicate payments were made to Wheatridge Beauty College on May 15, 1998,
   because the award showed up twice on the GAPS website, according to OCFO. The school
   chose to keep the duplicate funds for other expenditures.

   $13.60 - A payment to the State of Oklahoma was transmitted on October 12, 1999, and
   again on October 13, 1999. The error was found and FRB confirmed reversal of the second
   transaction on October 21, 1999.

Nine Potential Duplicate Payments

Our queries of the FRB and GAPS transactions and the subsequent OCFO review identified nine
transactions for $5.9 million that could be duplicate payments. OCFO did not agree that the nine
transactions were duplicate payments. In our followup to this analysis, OIG will attempt to
confirm the validity of these transactions and identify the cause of any such duplicate payments.
A discussion of the nine transactions follows.

                    Four Returned Payments Marked “Duplicate Entry”

We found four payments for approximately $3.4 million, including $319,000 in fiscal year 2001,
that were returned by the recipients. GAPS records indicate the reason for the returns was
“duplicate entry.” OCFO did not determine the actual cause, but OCFO stated that “duplicate
entry could have resulted from [the] recipient requesting funds twice by mistake or GAPS could
have sent a duplicate payment.” These payments are summarized below:

                                                                         Date of   Date of
    Recipient Name                                     Amount           1st Entry 2nd Entry
    Developmental Services California Dept.            2,665,616.29      06/03/98 06/03/98
    Florida A&M University                               329,101.00      09/29/98 09/29/98
    Education Mississippi State Dept.                    319,185.22      10/31/00 10/31/00
    Piedmont Technical College                           117,755.64      04/13/99 04/13/99
                        Total                         $3,431,658.15




ACN A11-B0001                                 March 2001                                  Page 6
Analysis of GAPS Duplicate Payments

                Three Returned Payments Identified by Recipients as Errors

A total of $2.3 million in payments were made to three recipients who received identical
payments within seven day periods, including $964,000 in fiscal year 2000. The recipients
returned the funds with explanations of “wrong amount,” “received in error,” and “wire sent in
error.” Moreover, the returns were incorrectly coded in GAPS to show that ED requested the
return of funds instead of the recipient initiating return of the funds. OCFO has not determined
whether these transactions were duplicate payments. These payments are summarized below:

                                                                         Date of   Date of
    Recipient Name                                      Amount          1st Entry 2nd Entry
    Education New Jersey Dept. of                     $1,076,701.00      10/01/98 10/01/98
    Education New York Dept. of                          963,687.00      09/11/00 09/12/00
    Indiana University                                   241,393.00      06/22/98 06/24/98
                       Total                          $2,281,781.00

                Two Returned Payments Identified by Recipients as Duplicate

Payments totaling $220,000, including approximately $93,000 in fiscal year 2000, were returned
by the recipients, who identified them as duplicates. The New Jersey Department of Labor
returned $126,751 on July 14, 1998, and the Tennessee Department of Human Services returned
$92,951 on September 8, 2000. OCFO did not provide any additional evidence about these
payments.

Other Matters

In the course of our analysis of duplicate payments we found four additional issues related to
GAPS payment operations including payments to wrong recipients, payments returned that were
not adequately explained, Pell grant authorizations entered twice, and payments made to two
frozen bank accounts. We also identified six likely duplicate payments from the PMS system
that were corrected after GAPS was implemented.

                             Four Payments to Wrong Recipients

Our review also identified four fiscal year 1999 payments totaling approximately $339,000 paid
to the wrong recipients. Three of these payments were made because an incorrect DUNS number
had been entered into GAPS. The DUNS number is a unique identifying number adopted by
GAPS to distinguish among grant recipients. All three payments were returned. These payments
are summarized below:

   $293,034.96 - Funds due to Hydaburg City School District of Alaska (DUNS 174610147)
   were sent in error on August 1999 to the Alaska Department of Education (DUNS
   157645995).

   $15,669.94 - Funds due to Woodville Independent School District in TX (DUNS 087720769)
   were sent in error on March 25, 1999, to the University of Texas in Austin (DUNS
   170230239).

ACN A11-B0001                                 March 2001                                   Page 7
Analysis of GAPS Duplicate Payments

   $5,301.50 - Funds due to Woodville Independent School District in TX (DUNS 087720769)
   were sent in error on March 19, 1999, to the University of Texas in Austin (DUNS
   170230239).

In addition, GAPS help desk records indicate a March 1999 payment was paid to the wrong
school. When the funds were refunded, ED posted the refund to the wrong school’s account.

   $24,504 - Tri-City Barber School received a payment in March 1999 that was not requested.
   The money was intended for the Parents Union for Public School. Tri-City refunded the
   money. However, the refund was applied to Tri-City (thereby increasing Tri-City’s available
   funds) instead of Parents Union.

                  Thirty-Five Payments Returned – Not Adequately Explained

We found 35 payments totaling approximately $18 million, including approximately $2.2 million
in fiscal year 2000, which were not adequately explained by OCFO. The payments were returned
by FRB to ED with reasons such as “unable to locate account,” “unidentified,” “per customer
request,” “wrong amount,” “sent in error,” “does not belong to beneficiary,” and “name and
account number do not agree.” OCFO did not provide us with evidence to support the legitimacy
of the payments. According to a recent GAO report, titled “Financial Management: Billions in
Improper Payments Continue to Require Attention” (GAO-01-44), dated October 27, 2000:

   Improper payments include payments that should not have been made or were made
   for incorrect amounts irrespective of whether the agency had effective controls in
   place. Specifically, improper payments would include inadvertent errors, such as
   duplicate payments and calculation errors, payments for unsupported or inadequately
   supported claims; payments for services not rendered or to ineligible beneficiaries;
   and payments resulting from outright fraud and abuse.

These 35 payments could be improper. Additional testwork, involving contacts with the
recipient, would be needed to determine the validity of these payments. See Attachment A for
details.

                          Pell Grant Authorizations Entered Twice

During our review of help desk inquiries we identified five instances totaling approximately
$615,000, including approximately $27,000 in fiscal year 2000 and $2,000 in fiscal year 2001, in
which ED posted duplicate increases in Pell grant authorizations to recipients’ accounts. GAPS
staff processed three transaction batches twice, which produced these five instances. No
duplicate payment or inappropriate drawdown resulted from these five instances. However, the
three transaction batches may have included additional Pell grant authorization increases for
other recipients, thereby increasing the Department’s potential risk of over-disbursing. We
recommend that OCFO review the procedures for posting authorizations to ensure that recipient
drawdowns are limited to the intended grant authorization amount.




ACN A11-B0001                                 March 2001                                  Page 8
Analysis of GAPS Duplicate Payments

In our followup analysis, OIG will determine whether ED corrected the accounts of other
recipients that were included in those batches, and we will review for any additional batches that
were incorrectly posted. These authorization increases are summarized below:

Team Track       Award             DUNS           Date
ID               Number(s)         No.            Submitted      Amount
ED0005470        P063P984460       not listed      11/02/1998      $207,308.00
ED0005486        P063P984929       087256061       11/03/1998       378,879.00
ED0018072        P063P993780       091062695       09/11/2000           633.00
ED0018209        P063P003464       078776333       09/29/2000        26,100.00
ED0018318        P063P004369       083845131       10/16/2000         2,041.00
                                       Total                       $614,961.00

                          Payments Made to Frozen Bank Accounts

In April 2000, the United States seized two bank accounts allegedly used in a fraud scheme
against the Department. As a result, the bank froze those accounts so that no money could go in
or out of them. During our GAPS analysis, one of our queries disclosed attempts to make grant
payments to the frozen bank accounts in August 2000. Because the accounts were frozen, the
payments were returned and were later forwarded to the correct grant recipients. We discussed
the event with OCFO to determine the circumstances surrounding the attempted payments. While
the bank account records were being maintained in GAPS for use as possible evidence, the bank
account information had been flagged as “invalid” in GAPS to prevent payments to them.
Department personnel, attempting to make authorized payments to the grant recipients, removed
the flags in August 2000. Once the mistake was identified, the bank accounts were flagged again
as invalid in GAPS. We recommend that the CFO review the procedures for changing bank
accounts and removing bank account flags within GAPS to ensure that similar human errors are
not repeated.

                             Six Likely PMS Duplicate Payments

Six payments, totaling approximately $2.0 million, appear to be duplicated from the PMS system
that preceded GAPS. Although our analysis focuses on payments made by GAPS, we asked
OCFO about these PMS payments because our analysis of help desk records indicated the
payments were likely duplicates. In addition, these discrepancies were discovered during our
analysis period. However, OCFO did not comment on these transactions because they were not
GAPS payments. These payments are summarized below:

    $1,600,000 - The University of Georgia had a duplicate drawdown on December 12, 1997. It
    sent a refund check to the Department, but the refund was credited to the University of Maine
    at Augusta, increasing Maine’s available funds. Georgia alerted the GAPS help desk in
    October 1998, and an adjustment was subsequently made.
.
    $309,882 - Texas Southern University received a duplicate payment in April 1998, and
    returned the funds in September 1998.

    $33,613 – The Full Fell Center for the Recording Art made a duplicate drawdown of its Pell

ACN A11-B0001                                   March 2001                                  Page 9
Analysis of GAPS Duplicate Payments

   money on May 14, 1998. OCFO did not indicate whether these funds were returned.

   $17,234 - The United States International University was sent a duplicate amount on June 28,
   1998, which was not requested by the recipient.

   $9,508 - The Ramapo College of New Jersey discovered a discrepancy on one of its awards,
   and sent a refund check to the Department on June 8, 1998.

   $6,596 - Marin Beauty College had a refund check on January 22, 1999, which never cleared,
   and requested the amount be posted back in GAPS.

Department Actions

The Department’s March 2000 report entitled, “Department-wide Objectives, 1999 Performance
Reports and 2001 Plans,” submitted under the Government Performance and Results Act
(GPRA), includes the following statement:

       The Student Financial Assistance (SFA) program and the Office of the Chief
       Financial Officer (OCFO) have made some duplicate improper payments. The
       Department takes this issue very seriously and is working to enhance procedures
       to prevent any improper or duplicate payments.

       To improve the identification of improper payments, SFA and OCFO will be
       doing additional work with the offices that have monitoring and oversight
       responsibility for postsecondary institutions, lenders, and guaranty agencies.
       Procedure changes have been implemented in the OCFO to prevent duplicate
       payments.

On October 12, 2000, the Inspector General recommended that the Department “proactively
develop its own approach or methodology for annually estimating improper payments.” The
development of an improper payment estimate could be a valuable GPRA performance indicator.

Future OIG Plans

Our analysis of GAPS payments was limited to the documentation available at the Department
and FRB. In a number of cases, the Department was unable to provide information about
payments beyond that available from FRB. In other cases, OCFO reviewed transactions and told
us the transactions were not duplicates; however, it did not provide sufficient evidence to support
this conclusion. As a result, we are unable to conclude on the propriety of a number of
transactions selected by our queries. In addition, we gave priority to large payments when we
selected our sample. We will initiate a subsequent review of GAPS transactions that will include
the 9 potential duplicate payments, the 4 payments to the wrong recipients, the 35 payments not
adequately explained by OCFO, the duplicate increases in Pell grant authorizations, the 6 likely
PMS duplicate payments, and a number of payments for smaller amounts which were not
submitted to OCFO for their review. This review will include contacting recipients to ascertain
the circumstances surrounding selected payments.


ACN A11-B0001                                  March 2001                                  Page 10
Analysis of GAPS Duplicate Payments

Recommendations

We recommend that the Chief Financial Officer:

1. Initiate procedures to actively identify and prevent improper payments,
2. Review the procedures for posting grant authorizations to ensure that recipient drawdowns
   are limited to the intended grant authorization amount, and
3. Review the procedures for changing bank accounts and removing bank account flags to
   ensure that payments are not sent to an incorrect bank account.


                        OCFO RESPONSE TO REPORT
In their response to our draft report, OCFO acknowledged that they have additional work to do in
this area. They confirmed that three payments initially identified as potential duplicate payments
and another payment that was listed as not adequately explained were, in fact, duplicate
payments. Furthermore, after OCFO responded to our draft report they were able to confirm
another duplicate payment. We amended our final report to reflect these five additional
confirmed duplicates. We also amended our final report to better distinguish potential duplicate
payments (the subject of our analysis) from potential improper payments (a broader category).

One of the 13 duplicate payments resulted from a duplicate request by the recipient. OCFO is
attempting to determine whether the other 12 duplicate payments resulted from a duplicate
request by the recipient or a control failure within the Department’s disbursing process. They
said our first recommendation would be addressed in their corrective action plan to address
recommendations made in the Report on Internal Control issued with the report on the audit of
the Department’s fiscal year 2000 financial statements. OCFO agreed to review the procedures
referred to in the second and third recommendations and to prepare written corrective action
steps to strengthen the procedures.




ACN A11-B0001                                 March 2001                                  Page 11
Review of GAPS Duplicate Payments                                                                  Attachment A

                         35 Payments Returned – Not Adequately Explained

                                                                    Total                            Date
     DUNS        Recipient Name                                    Amount          FY 2000         Returned
 1   789173308   KY State Univ Mail Room                              $29,882.00                     02/22/98
 2   604722629   American Intercontinetal Univ                        $84,422.00                     05/22/98
 3   806782173   Education New York Dept of                           $37,975.88                     06/17/98
 4   789173309   KY State Univ Mail Room                                 $590.00                     06/30/98
 5   807308788   New Jersey Dep of Labor                              $71,985.00                     08/21/98
 6   024481876   Southast Ala Edcatn Otrach Llc                        $6,000.00                     09/01/98
 7   011144198   Department of Family                                $908,290.19                     10/15/98
 8   868853094   University of New Mexico                            $138,550.00                     10/19/98
 9   004426771   University of Florida                             $8,700,000.00                     01/15/99
10   854811684   Government of the Federated States of Micrones    $2,838,831.00                     01/27/99
11   157645995   Education Alaska Department                           $2,100.00                     02/09/99
12   174097410   County of Okaloosa                                    $1,500.00                     02/15/99
13   001910777   Johns Hopkins University                             $13,148.00                     04/20/99
14   001910777   Johns Hopkins University                             $37,517.00                     04/20/99
15   001910777   Johns Hopkins University                             $62,787.00                     04/20/99
16   001910777   Johns Hopkins University                          $2,480,085.00                     04/20/99
17   929332658   West Virginia University                              $6,390.00                     04/23/99
18   075617902   Parkland College                                     $48,627.00                     04/28/99
19   174097410   County of Okaloosa                                      $310.00                     05/04/99
20   020657151   Research Foundation Suny                            $115,495.00                     07/21/99
21   031059210   ATI Enterprises Inc                                 $238,190.00                     08/03/99
22   039240510   Microcomputer Technology Inst                         $5,848.98                     09/16/99
23   004426771   University of Florida                               $352,000.00     $352,000.00     10/21/99
24   623751831   Florida A&M University                              $319,961.00     $319,961.00     10/26/99
25   623751831   Florida A&M University                              $942,727.00     $942,727.00     10/26/99
26   808346555   Department of EducationIiowa                         $28,788.05      $28,788.05     10/26/99
27   878147602   Human Services Colorado Dept                         $71,988.85      $71,988.85     11/03/99
28   183872878   County of Desoto                                     $24,620.16      $24,620.16     12/01/99
29   809791296   Social & Rehabilt Services                          $188,761.00     $188,761.00     02/03/00
30   956153936   City of Lackawanna                                   $75,710.00      $75,710.00     04/12/00
31   826946337   Georgia Inst of Cosmetology                          $12,028.00      $12,028.00     04/17/00
32   198636953   Staunton City School District                        $92,500.00      $92,500.00     06/01/00
33   090059440   Idea Inc                                              $6,100.00       $6,100.00     06/05/00
34   614924181   Asm Beauty World Academy                                 $25.00          $25.00     08/16/00
35   063616700   Lac Courte Oreilles Tr                               105,840.00      105,840.00     08/23/00
                                                                  $18,049,573.11   $2,221,049.06
                                                                      Attachment C
                          REPORT DISTRIBUTION LIST
                          CONTROL NUMBER A11-B0001

                                                                     No. Of
                                                                     Copies
Action Official

       Mr. Mark Carney                                              Original
       Office of the Chief Financial Officer
       U. S. Department of Education
       400 Maryland Avenue, SW
       Washington, D.C. 20202


Office of the Secretary
       Chief of Staff                                                      1

Office of the Under Secretary
       Thomas P. Skelly                                                    1

Office of the General Counsel
       General Counsel                                                     1


Office of Inspector General (via e-mail)

       Inspector General                                                   1
       Deputy Inspector General                                            1
       Assistant Inspector General for Audit                               1
       Deputy Assistant Inspector General for Audit                        1
       Director, State and Local Advisory & Assistance                     1
       Director, SFA Advisory & Assistance                                 1
       Assistant Inspector General for Analysis & Inspe ction Services     1
       Assistant Inspector General for Investigations                      1
       Counsel to the Inspector General                                    1
       Regional Inspectors General and Directors for Audit Services    1 each
